APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Third Circuit (December 3, 2020) ................ 1a
Memorandum Opinion of the United States
District Court for the District of Delaware
(January 3, 2020)................................................ 9a
Order of the United States District Court
for the District of Delaware
(January 3, 2020).............................................. 40a
Order Granting Lennar Corporation’s Motion to
Enforce the Injunction and Release in the
Debtors’ Joint Chapter 11 Plan and
Confirmation Order (November 1, 2018)......... 42a
Order Denying Motion to Shorten Notice Period
with Respect to Motion of Citizens Against
Corporate Crime, LLC’s Motion for
Abstention (October 23, 2018) ......................... 46a
REHEARING ORDER
Order of the United States Court of Appeals for
the Third Circuit Denying Sur Petition for
Rehearing En Banc (January 7, 2021) ............ 48a
STATUTORY PROVISIONS
Relevant Statutory Provisions ............................... 50a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
The People of California’s Statement of NonOpposition to Lennar Corporation’s Motion to
Enforce the Injunction and Release in Debtor’s
Joint Chapter 11 Plan and Confirmation
Order (October 18, 2018) .................................. 55a
State of California’s Notice of Election of Decline
Intervention (January 19, 2018) ...................... 61a

App.1a
OPINION* OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
(DECEMBER 3, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
IN RE: LANDSOURCE COMMUNITIES
DEVELOPMENT LLC, A/K/A LENNAR/LNR
FUNDING, A/K/A LENR PROPERTIES LLC,
A/K/A NWHL INVESTMENT, LLC, ET AL.,

Debtors,
v.
CITIZENS AGAINST CORPORATE CRIME, LLC,

Appellant.
________________________
No. 20-1134
On Appeal from the United States District Court
for the District of Delaware
(District Court No.: 1:18-cv-01793)
District Judge: Colm F. Connolly
Submitted under Third Circuit L.A.R. 34.1(a)
September 25, 2020
Before: McKEE, JORDAN and RENDELL,
Circuit Judges.
* This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

App.2a
RENDELL, Circuit Judge.
Citizens Against Corporate Crime LLC (“CACC”)
and its sole member and officer Nicholas Marsch III,
appeal the District Court’s order affirming the decision
of the Bankruptcy Court to reopen the Chapter 11 case
of Debtor LandSource Communities Development LLC
and to enforce its order confirming the final reorganization plan. By its order, the Bankruptcy Court enjoined
CACC and Marsch—who was a participant in the
Chapter 11 proceedings—from litigating claims against
another Chapter 11 participant, Lennar Corporation.
The claims against Lennar, the Bankruptcy Court
concluded, were barred by the confirmation order.
The District Court agreed with the Bankruptcy Court,
as do we and, therefore, we will affirm.
I.
As we write for the parties, and they are wellacquainted with the circumstances of this case from
their litigation here and in jurisdictions across the
country,1 we set forth the following background only
as necessary to resolve this appeal.
In 2008, LandSource, a real estate development
company, petitioned for Chapter 11 bankruptcy relief.
At that time, Appellee Lennar was LandSource’s
largest unsecured creditor. The Creditor’s Committee,
of which Marsch and his other company—Briarwood
1 See, e.g., In re Nicholas Marsch, No. 10-02939-PB11, 2010 WL
5114726 (Bankr. S.D. Cal. Dec. 2, 2010); In re Briarwood Capital,
LLC, No. 10-02677-PB11, 2010 WL 2884944 (Bankr. S.D. Cal.
July 20, 2010); Briarwood Capital, LLC. v. Lennar Homes of Cal.,
Inc., Nos. D054803, D056061, 2010 WL 4873505 (Cal. Ct. App.
Dec. 1, 2010); Briarwood Capital, LLC v. Lennar Corp., 160 So.3d
544 (Fla. Dist. Ct. App. 2015).

App.3a
Capital—were members, sought the release of Lennar’s
claims to permit and maximize any distributions
available for smaller unsecured creditors. Without such
release, the lion’s share of distributions from the bankruptcy estate would likely have flowed to Lennar. Thus,
the Creditor’s Committee negotiated a deal with Lennar.
Under the deal, Lennar agreed to contribute
nearly $140 million to the estate and to release its
unsecured claims. In exchange, Lennar received, among
other things, a broad release and waiver of “any and
all Claims . . . or liabilities whatsoever” held by “any
Person, in any way relating to the Debtors, the Chapter
11 Cases, or the Plan.” JA 11 (citing JA 1154) (emphasis
added). Later, the Bankruptcy Court adopted the terms
of this deal into its order confirming the final Chapter
11 plan. Neither Marsch nor his company, Briarwood,
appealed from the final confirmation order.
Over seven-and-a-half years later, Marsch, as
sole owner and officer, formed Appellant CACC under
Wyoming law and filed a whistleblower action against
Lennar in California court. CACC alleged that Lennar,
by its conduct leading up to and through the LandSource Chapter 11 bankruptcy, defrauded the California
Public Employees’ Retirement System (“CalPERS”),
which had been a major investor in LandSource. The
California Office of the Attorney General reviewed
CACC’s allegations and complaint, but ultimately
declined to intervene.
In response to the California whistleblower case,
Lennar moved the Bankruptcy Court to reopen the
LandSource Chapter 11 case and to enforce its final
plan confirmation order by enjoining CACC and Marsch
from proceeding with the suit. After a hearing, the

App.4a
Bankruptcy Court granted both Lennar’s motion to
reopen and its motion to enforce, concluding that:
(1) it is undisputed that Marsch was the “sole
and controlling member” of CACC and that
Marsch “formed CACC as a way of trying to
get around and avoid the release and
injunction provision provided in the confirmed
Chapter 11 plan of LandSource which was not
appealed and [h]as long, long since become
final;
(2) there is “no question” that “Mr. Marsch is in
privity with CACC [and] Briarwood and is
bound by the injunction and release;” and
(3) “the people of California do not oppose the
relief that Lennar has requested” and the
“actual relief sought by Lennar is limited to
Mr. Marsch and CACC.”2
JA 17–18 (citing JA 2329). CACC appealed and the
District Court affirmed in a thorough, well-reasoned
thirty-three-page opinion. This timely appeal followed.
II.
The District Court had jurisdiction under 28
U.S.C. § 158(a)(1). We have jurisdiction under 28 U.S.C.
§ 158(d).
“We exercise plenary review of an order from a
district court sitting as an appellate court in review
of a bankruptcy court.” In re Exide Techs., 607 F.3d
2 JA 2219 (filing from the California Attorney General expressing
his “non-opposition to Lennar Corporation’s Motion to Enforce
the Injunction and Release in Debtor’s Joint Chapter 11 Plan
and Confirmation Order[.]”).

App.5a
957, 961– 62 (3d Cir. 2010) (citing In re CellNet Data
Sys., Inc., 327 F.3d 242, 244 (3d Cir. 2003)). In so
doing, we review legal determinations by a bankruptcy
court de novo and review factual findings for clear
error. Id. (citing In re Gen. DataComm Indus., Inc.,
407 F.3d 616, 619 (3d Cir. 2005)). However, a bankruptcy court’s decision on a motion to reopen bankruptcy proceedings, like decisions interpreting its
own confirmation orders, is afforded greater deference
and reviewed for abuse of discretion. In re Shenango
Group Inc., 501 F.3d 338, 346 (3d Cir. 2007) (“[A]
bankruptcy court’s interpretation of its own order
ought to be subject to review for an abuse of discretion.”); In re Zinchiak, 406 F.3d 214, 224 (3d Cir. 2005)
(“[T]he decision of the Bankruptcy Court to reopen a
previously closed bankruptcy proceeding is reviewed
for abuse of discretion.”).
III.
CACC’s and Marsch’s appeal rests on the contention that by reopening the bankruptcy case and enforcing the terms of the confirmation order against them,
the Bankruptcy Court effectively and unfairly “enjoined
non-parties never before the court, including millions
of Californians, the California Department of Justice
Office of the Attorney General, and even lawyers, from
ever seeking relief under the False Claims Act laws
of California and its qui tam remedy.” Appellant’s
Br. 18, ECF No. 20. As we explain below, we, like the
District Court, disagree with this central premise. After
explaining why this premise is fundamentally flawed,
we reject each of CACC’s and Marsch’s three other
alleged errors that they contend warrant reversal.

App.6a
While CACC and Marsch characterize the Bankruptcy Court’s and District Court’s rulings as affecting
“non-parties never before the [Bankruptcy] [C]ourt,”
the undisputed facts show that the only parties
affected are CACC and Marsch—who himself appeared
before the Bankruptcy Court in connection with the
LandSource Chapter 11 case over a decade ago. Indeed,
Marsch did not merely appear before the Bankruptcy
Court as the head of Briarwood, one of the unsecured
creditors, but he played a central role in the final
reorganization plan as a member of the Creditors’
Committee. It was the Creditors’ Committee, after
all, who negotiated the terms of the general release
and waiver, which Marsch now seeks to circumvent.
That the Bankruptcy Court and District Court’s
rulings affect only Marsch and CACC is also evident
from the plain terms of the Bankruptcy Court’s order,
which granted injunctive relief expressly “limited to Mr.
Marsch and CACC.” JA 30. The Bankruptcy Court
enjoined only Marsch and CACC from pursuing claims
against Lennar—no one else. In fact, the Bankruptcy
Court eliminated any risk that its order might be
misconstrued as affecting the rights of parties beyond
Marsch and CACC in recognizing that “the people of
California,” for whom Marsch and CACC purport to
speak, in fact, “do not oppose” enjoining Marsch’s and
CACC’s whistleblower claims. JA 2223 (emphasis
added); see also JA 42–43 (limiting applicability of
its order to CACC and Marsch). In view of the undisputed record and the care of the Bankruptcy Court in
crafting its order, we are unpersuaded that this
matter affects any party beyond CACC and Marsch.
Having concluded that the essential premise of
CACC’s and Marsch’s argument is meritless, we

App.7a
easily dispense with their other arguments advanced
in favor of reversal. Contrary to their contentions, we
hold that the District Court did not err in concluding:
(1) that the Bankruptcy Court acted within its discretion in reopening the case; (2) that the Bankruptcy
Court acted within its discretion in denying their
motion for permissive abstention; and (3) that CACC
and its sole owner and officer, Marsch, were bound
by the terms of the plan confirmation order.
First, the Bankruptcy Court acted well within
its discretion in reopening the LandSource Chapter
11 case. We regularly recognize the wide latitude of
the bankruptcy courts to “reopen a closed case ‘to
administer assets, to accord relief to the debtor or for
other cause.’” In re Lazy Days’ RV Center, Inc., 724
F.3d 418, 422 (3d Cir. 2013) (quoting 11 U.S.C.
§ 350(b)). Such latitude is appropriate because it is
the bankruptcy court that can “provide the best
interpretation of its own order[.]” Id. at 423 (quoting
In re Zinchiak, 406 F.3d at 224) (internal quotation
marks omitted). Bankruptcy courts often reopen cases
“to resolve [] dispute[s] regarding Settlement Agreement[s] it had previously confirmed. . . . ” Id. This is
precisely what the Bankruptcy Court did here and
we agree with the District Court that the decision to
reopen was fully within the Bankruptcy Court’s discretion because it was “for the limited purpose of
interpreting and enforcing [its own] Confirmation
Order.” JA 24.
Second, we have no jurisdiction to review the
District Court’s and Bankruptcy Court’s decisions
not to invoke permissive abstention under 28 U.S.C.
§ 1334(c)(1). Section 1334(c)(1) provides that a district
court may “in the interest of justice . . . abstain[ ] from

App.8a
hearing a particular proceeding arising under title 11
or arising in or related to a case under title 11.” 28
U.S.C. § 1334(c)(1). “Any decision to abstain or not to
abstain made under subsection (c) . . . is not reviewable
by appeal or otherwise by the court of appeals. . . . ”
28 U.S.C. § 1334(d) (emphasis added). We have
explained that “appeals of orders denying permissive
abstention unquestionably are not allowed.” In re
Seven Fields Dev. Corp., 505 F.3d 237, 252 (3d Cir.
2007). Thus, we have no jurisdiction to review the
denial of CACC’s and Marsch’s underlying motion for
permissive abstention. If we had jurisdiction, however, we would agree with the District Court’s wellreasoned conclusion that the Bankruptcy Court did
not abuse its discretion in refusing to abstain.
Third, we agree with the District Court’s factual
conclusion that CACC and Marsch, as CACC’s sole
owner and officer in privity with Briarwood, are
bound by the terms of the Bankruptcy Court’s confirmation order including the broad, unambiguous provisions
by which Marsch and Briarwood released and waived
all claims against Lennar. As the District Court
explained, the terms of the confirmation order and the
release and waiver provisions contained in it plainly
bar Marsch’s and CACC’s claims because their claims
clearly “relate to” the Chapter 11 bankruptcy case.
We discern no error in either the judgment of the
District Court or the Bankruptcy Court.
IV.
For these reasons, we will affirm the District
Court’s order.

App.9a
MEMORANDUM OPINION
OF THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
(JANUARY 3, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
________________________
IN RE LANDSOURCE COMMUNITIES
DEVELOPMENT, LLC, ET AL.,

Debtors.
________________________
CITIZENS AGAINST CORPORATE CRIME, LLC,

Appellant,
v.
LENNAR CORPORATION,

Appellee.
________________________
Civ No. 18-1793-CFC
Chapter 11 Bankr. No. 08-11111-KJC
(Jointly Administered)
Before: Colm F. CONNOLLY,
United States District Judge.

App.10a
I.

Introduction

Pending before the Court is an appeal by Citizens
Against Corporate Crime, LLC and its sole member
and officer Nicholas Marsch III (together, “CACC”),
from the Bankruptcy Court’s November 1, 2018 Order

Granting Lennar Corporation’s Motion to Enforce the
Injunction and Release in the Debtors’ Joint Chapter
11 Plan and Confirmation Order (B.D.I. 3613, APP65962)1 (“Enforcement Order”). The Enforcement Order
was entered in the Chapter 11 cases of Landsource
Development Communities, LLC and certain of its
affiliates (“Debtors”) following the Bankruptcy Court’s
July 17, 2018 Order reopening those cases (B.D.I. 3562,
APP343-44) (“Reopen Order”), which CACC also challenges on appeal. The Enforcement Order granted
appellee Lennar Corporation’s (“Lennar”) October 5,
2018 motion (B.D.I. 3581, APP416-60) (“Enforcement
Motion”), which sought an order enforcing the injunction and release provisions contained in the Debtors’
confirmed plan of reorganization (B.D.I. 2214-1)
(“Plan”) and the Bankruptcy Court’s Confirmation
Order (B.D.I. 2151, SA1644). The Enforcement Order
granted Lennar’s request for relief and required
CACC to dismiss with prejudice litigation pending
against Lennar in the United States District Court
for the Eastern District of California (“California
Action”). The Enforcement Order also denied CACC’s
1 The docket of the Chapter 11 cases, captioned In re LandSource
Communities Development, LLC, No. 08-11111 (KJC) (Bankr.
D. Del.) is cited herein as “B.D.I ___.” The appendix filed in support of CACC’s opening brief (D.I. 6) is cited herein as
“APP___,” and the supplemental appendix (D.I. 13) filed in support of Lennar’s answering brief (D.I. 12) is cited here as “SA
___.”

App.11a
separate motion for abstention (B.D.I. 3607, APP56780) (“Abstention Motion”) as moot. For the reasons
set forth herein, the Court affirms the Reopen Order
and Enforcement Order.
II.

Background
A. The Debtors and the Chapter 11 Cases

The Debtors’ primary business was developing
master communities for residential and commercial
land development. In February 2007, approximately
15 months before its bankruptcy filing, LandSource
recapitalized its debt and membership. (B.D.I. 2137
(“White Decl.”), SA1452-1454 at ¶ 10(d)). Before this
transaction, Lennar and LNR Property Corporation
each owned 50% of LandSource’s member interests.
Id. On February 27, 2007, in exchange for a 68%
member interest in LandSource, MW Housing Partners
III, L.P., which was 90%-owned by the California
Public Employees’ Retirement System (“CalPERS”),
contributed $370 million in cash and $600 million in
real property to LandSource. (See B.D.I. 2047-3
(“Supplement to Disclosure Statement”), SA1283; B.D.I.
1772 (“Disclosure Statement”), SA882). As a result of
CalPERS’s investment in LandSource, Lennar’s 50%
ownership interest was reduced to 16%. (White Decl.
at ¶ 10(d), SA1452-54). LandSource subsequently
borrowed from new lenders to pay a $700 million
distribution to Lennar in exchange for its reduced
equity interest. (Supplement to Disclosure Statement
at 11, SA1283). In its Complaint in the California
Action, CACC alleged that these “2007 transactions”
constitute a fraud on CalPERS. Like many businesses
in the homebuilding sector, LandSource was devastated
by the subprime mortgage crisis and, despite efforts

App.12a
to realign its business, became insolvent in 2008 and
filed petitions under Chapter 11 on June 8, 2008
(“Petition Date”). (Disclosure Statement at 23, SA883).
B. The Settlement with Lennar
Lennar was the Debtors’ largest unsecured creditor
and filed proofs of claim in excess of $130 million
against the jointly administered estates. (B.D.I. 2139
(“Lennar’s Confirmation Br.”) at 3, SA1490). Lennar’s
claims dwarfed those of other unsecured creditors,
which totaled only $27.6 million. Id. Efforts to confirm
a reorganization plan that left in place claims by and
against Lennar did not succeed. The Creditors’ Committee—which included Marsch’s company Briarwood
Capital—fought for a release of Lennar’s claims against
the Debtors to avoid Lennar receiving the majority of
distributions and diminishing the recovery available
for other creditors under the Plan. (White Decl. at
¶ 10(d), SA1452-54).
Following months of negotiation, the Creditors’
Committee, secured creditors, and other parties in
interest reached an agreement for a consensual Plan
(“Lennar Settlement”). The Lennar Settlement included
a complete release of Lennar’s unsecured claims in
exchange for valuable consideration—the resolution
of potential causes of action the Debtors or others
might assert against Lennar, including causes of action
based on the 2007 transactions. (Lennar’s Confirmation
Br. at 2-6, SA1489-93; Supplement to Disclosure Statement at 11, SA1283; White Decl., SA1452-54). Lennar
agreed to contribute $140 million in cash to the Debtor
and to waive any distributions on its $130 million
unsecured claim. (See B.D.I. 2214-1 (“Plan”) at 39,
50; SA1748, 1759). In exchange, Lennar received a

App.13a
15% equity interest in the Reorganized Debtors, various
assets, and a broad release from “any and all Claims
. . . or liabilities whatsoever” held by “any Person, in
any way relating to the Debtors, the Chapter 11
Cases, or the Plan.” (Plan at 39, 60, SA1748, 1769
(emphasis added)). The term “person” was defined to
include “any governmental unit or any political subdivision thereof.” (Id. at 18). The record supports Lennar’s
assertion that this settlement funded the Plan. (See
e.g., SA1452-54, 1490, 1512-18, 1610-11; White Decl.;
Lennar’s Confirmation Br.; B.D.I. 2140 (“Barclays’
Confirmation Br.”); B.D.I. 2142).
When the settlement was reached, a Supplement
to Disclosure Statement was filed on July 6, 2009 that
described the Lennar Settlement in detail, including the
potential claims that would be released and enjoined
under the Plan. The Debtors also effected nationwide
publication notice of LandSource’s disclosure statement. (B.D.I. 1850 (Affidavit of Publication in THE
WALL STREET JOURNAL, SA1245)). The Creditors’ Committee encouraged its constituents to vote in favor of
the Plan. (Barclays’ Confirmation Brief at 11, 23,
SA1514, 1526). The vast majority of voting classes voted
to accept the Plan. (B.D.I. 2143 (Declaration Regarding
Tabulation of Votes), SA1617). Absent the Lennar
Settlement, the Debtors’ reorganization would not
have been possible. (White Decl. at ¶ 5, SA1442-43).
The confirmed Plan incorporated the broad consensual third-party release of Lennar and the other
terms of the Lennar Settlement. (Plan at 19, 60; SA
1728, 1769). The Plan also expressly reserved the
Bankruptcy Court’s post-confirmation jurisdiction to
“resolve any disputes concerning any release of a
non-Debtor hereunder or the injunction against acts,

App.14a
employment of process or actions against such nonDebtor arising hereunder.” (Plan at 67-68, SA177677). The Confirmation Order includes injunction and
release provisions that essentially mirror the Plan.
(B.D.I. 2151 (“Confirmation Order”) at 22-23, 42-43;
SA1665-66, 1685-86). The Order directs that, “[u]pon
the entry of the Confirmation Order with respect to
the Plan, all Holders of Claims and Interest and other
parties in interest . . . shall be enjoined from taking
any actions to interfere with the implementation or
consummation of the Plan.” (Id. ¶ 34, SA1689). Neither
Marsch nor his company opted out of the Release or
objected to the Lennar Settlement prior to confirmation.
CalPERS and the California Attorney General’s
Office (“CAGO”) participated in the LandSource bankruptcy. CalPERS, which was represented by private
counsel, objected to an early iteration of the Debtors’
Disclosure Statement on several grounds, but later
withdrew its objection. (B.D.I. 1430 (CalPERS’ Objection),
SA809; B.D.I. 1677 (Withdrawal of Objection), SA850).
CalPERS did not object to the Supplement to Disclosure Statement, which described in detail the Lennar
Settlement and added the broad release of Lennar to
the Plan. Like Marsch, CalPERS also did not object
to the Plan or otherwise opt out of the Release prior
to confirmation. CAGO appeared in the Chapter 11
cases on behalf of four state environmental agencies
that were creditors or parties in interest in the bankruptcy. (See B.D.I. 676, 771, 775, 1012, 1031, 1185,
1207, 1571, 1633 (Notices of Appearance and Pro Hac
Applications and Orders). Deputy Attorneys General
participated in the proceedings, including by filing
objections to an early Disclosure Statement and
attending the confirmation hearing. (See B.D.I. 1445

App.15a
(Water Resource Board Objection), SA0818). Like
CalPERS, the CAGO did not object to the Lennar
Settlement or the Injunction and Release in the
Confirmation Order.
The Bankruptcy Court entered its Confirmation
Order on July 20, 2009, and the Plan became effective
on July 31, 2009. (B.D.I. 2151 (Confirmation Order),
SA1644; B.D.I. 2223 (Notice of Effective Date), SA1985).
No party appealed or sought reconsideration of Plan
confirmation.
C. The California Action and Reopen Order
More than seven years later, on February 23, 2017,
Marsch formed CACC in Wyoming. (B.D.I. 3582-1
(“CACC Articles of Organization”), SA2100-03). It is
undisputed that Marsch is and has always been the
sole and controlling member of CACC. (B.D.I. 3582-16
(CACC’s Reponses to Interrogatories), SA2299-2302;
B.D.I. 3582-17 (“CACC operating agreement”) SA230408). One day after its formation, CACC filed its Complaint against Lennar in the California state court
alleging claims under the California False Claims Act
against Lennar and various Doe defendants on behalf
of CalPERS. The California government investigated
CACC’s claims but ultimately filed in January 2018
a notice declining to intervene in the case. (B.D.I.
3539-4 (“Marroso Decl.”) at ¶ 4, APP-93).
Lennar was served with the Summons and Complaint on April 17, 2018. (Id.) Relevant to the appeal,
the claims alleged by CACC’s Complaint relate to
Lennar’s conduct with respect to the February 2007
transaction and the LandSource Chapter 11 cases.
The gravamen of the Complaint is that Lennar (1)
“fraudulently induced [CalPERS] to enter into a

App.16a
Contribution and Formation Agreement which required
CalPERS to contribute nearly a billion dollars in assets
to LandSource,” (2) then “induced CalPERS to allow
[it] to strip all of the cash and loan proceeds from the
LandSource balance sheet in a ‘Special Distribution,’”
which “placed LandSource on an inevitable and
foreseeable path to bankruptcy,” and (3) subsequently “filed, managed, and manipulated the LandSource
bankruptcy, causing a total loss to CalPERS.” (B.D.I.
3582-2 (“Complaint”) at ¶¶ 18-20, 31, 37; APP 108112).
On May 17, 2018, Lennar removed the Complaint
to the United States District Court for the Eastern
District of California, thus initiating the California
Action. (Case No. 2:18-cv-01269 TLN-DB, D.I. 1 (Notice
of Removal), SA2406). The next day, Lennar filed its
Motion to Reopen in the Bankruptcy Court. (B.D.I.
3539, APP43-57). Lennar argued in support of its
motion that the Bankruptcy Court was best suited to
interpret and enforce its own Confirmation Order
based upon, among other reasons, its familiarity with
the LandSource Chapter 11 cases. (Id. at 12, APP 54).
Lennar also argued that each and every claim asserted
against Lennar in the Complaint fell within the scope
of the Injunction and Release in the Confirmation
Order. (Id. at 9-11, APP51, APP53). CACC filed the
sole objection to the Motion to Reopen on July 2,
2018. (B.D.I. 3552, APP292-312).2

2 While Lennar’s Motion to Reopen was pending, on June 5,
2018, the California district court approved a joint stipulation
filed by Lennar and CACC to stay the California Action pending
resolution of the Motion to Reopen. (Case No. 2:18-cv-01269TLN-DB, D.I. 13; SA2414).

App.17a
The Bankruptcy Court granted Lennar’s Motion
to Reopen from the bench at the July 17, 2018
hearing and issued its written order the same day.
(Marroso Decl., Ex. 25 (Hr’g Tr. at 33:7-11), APP378;
Reopen Order, APP343-44). With permission of the
Bankruptcy Court, in July 2018, Lennar served
discovery on CACC to ascertain its owners, managers,
and members. (Marroso Decl., Ex. 28, APP466). Lennar
eventually moved to compel, and the Bankruptcy
Court ordered CACC to respond. (B.D.I. 3574 (Order
on Lennar’s Request to Compel Discovery), APP40305). On the eve of Marsch’s deposition, CACC produced
interrogatory responses and documents that establish
without a doubt that Marsch formed and wholly
owns and controls CACC. (B.D.I. 3582, SA2299-2302).
D. The Enforcement Order
Lennar filed the Enforcement Motion on October
5, 2018. (B.D.I. 3581, APP416-60). CACC filed the
sole objection to the Enforcement Motion on October
18, 2018. (B.D.I. 3593, APP520). The same day,
CAGO filed a Statement of Non-Opposition to Lennar’s
Enforcement Motion. (Id.) In its Statement, CAGO
stated that, “[a]s the real party in interest in the
California Action,” the People of California “do not
oppose Lennar’s request” that CACC be required to
dismiss the Complaint as a violation of the Injunction
and Release in the Confirmation Order and enjoined
from taking further actions against Lennar in violation
of the Confirmation Order. (Id. at 4, APP521 (emphasis
added)).
Eight days before the hearing on Lennar’s
Enforcement Motion, CACC filed an Abstention Motion
and purported to set the motion for hearing the same

App.18a
day as the hearing on Lennar’s Enforcement Motion.
(B.D.I. 3589, APP478-90). A few days later, apparently
realizing its procedural error, CACC filed a Motion to
Shorten Notice on the Abstention Motion. (B.D.I.
3594, APP527-31). Lennar opposed CACC’s Abstention
Motion and its request for shortened notice on October
22, 2018. (B.D.I. 3596, APP555-60). The next day, the
Bankruptcy Court denied CACC’s motion to shorten
time on the Abstention Motion “for the reasons
stated in [Lennar’s] Objection.” (B.D.I. 3603, APP56162). The following day, CACC re-filed its Abstention
Motion and set it for hearing on November 14, 2018.
(B.D.I. 3607, APP567-80).
Lennar’s Enforcement Motion was heard on October 25, 2018. After hearing argument from the
parties, the Court read into the record the pertinent
provisions of the Injunction and Release in the
confirmed Plan and Confirmation Order. (B.D.I. 3623
(10/25/18 Hr’g Tr.) at 35:17-36:21, APP616-17). The
Bankruptcy Court explained that it would grant
Lennar’s Enforcement Motion for three reasons: (1) it
is undisputed that Marsch was the “sole and controlling
member” of CACC and that Marsch “formed CACC
as a way of trying to get around and avoid the release
and injunction provision provided in the confirmed
Chapter 11 plan of LandSource which was not appealed
and [h]as long, long since become final;” (2) there is
“no question” that “Mr. Marsch is in privity with
CACC [and] Briarwood and is bound by the injunction
and release;” and (3) “the people of California do not
oppose the relief that Lennar has requested” and the
“actual relief sought by Lennar is limited to Mr.
Marsch and CACC.” (Id. at 37:3-38:4, APP618).

App.19a
On November 1, 2018, the Bankruptcy Court
entered the Enforcement Order, requiring CACC and
Marsch to “take all actions necessary to dismiss the
Complaint” within seven business days. (Enforcement
Order, APP659-62). The Enforcement Order incorporated all of the findings and conclusions of law stated
on the record at the October 25 hearing. (Id.) As part
of the Enforcement Order, the Bankruptcy Court also
denied CACC’s Abstention Motion as moot. (Id.)
CACC filed its Notice of Appeal on November 14,
2018. (B.D.I. 3615, APP663-66). CACC’s appeal asks
this Court to vacate (1) the Bankruptcy Court’s July
17, 2018 Reopen Order, which reopened the Chapter
11 Cases closed back in 2013, for the limited purpose
of adjudicating Lennar’s Enforcement Motion; and
(2) the Bankruptcy Court’s Enforcement Order, which
(i) granted Lennar’s Enforcement Motion and (ii)
denied CACC’s Abstention Motion as Moot. (D.I. 1).
CACC did not seek a stay of the Enforcement
Order pending this appeal. On November 14, 2018,
one day after the deadline imposed by the Enforcement
Order, CACC filed a “Request for Consent to Dismiss
Citizens Against Corporate Crime, LLC” in the
California Action. (Case No. 2:18-cv-01269-TLN-DB,
D.I. 17; SA2421). Rather than request dismissal of the
California Action, as the Bankruptcy Court’s order
required, CACC requested only that it (CACC) be dismissed as a party to the action. (Id.)
On November 15, 2018, Lennar filed a Response
to CACC’s Request in the California Action, stating
that the Request should be construed as a motion for
voluntary dismissal of the California Action. (Case No.
2:18-cv-01269-TLN-DB (E.D. Cal.), D.I. 18; SA2428).
Lennar’s Response attached correspondence from

App.20a
the CAGO consenting to voluntary dismissal of the
California Action. (Id. at 2). On November 16, 2018,
the court dismissed the Complaint with prejudice as to
CACC and closed the case. (Id., D.I. 19 (Minute Order)).
Briefing of the appeal is complete. (D.I. 6, 12, 13,
16). The Court did not hear oral argument because
the facts and legal arguments are adequately presented
in the briefs and record, and the decisional process
would not be significantly aided by oral argument.
III. Jurisdiction and Standards of Review
Appeals from the Bankruptcy Court to this
Court are governed by 28 U.S.C. § 158. Pursuant to
§ 158(a), district courts have mandatory jurisdiction
to hear appeals “from final judgments, orders, and
decrees” and discretionary jurisdiction over appeals
“from other interlocutory orders and decrees.” 28
U.S.0 § 158(a)(1) and (3). In conducting its review of
the issues on appeal, this Court reviews the Bankruptcy
Court’s findings of fact for clear error and exercises
plenary review over questions of law. See Am. Flint
Glass Workers Union v. Anchor Resolution Corp.,
197 F.3d 76, 80 (3d Cir. 1999). The Court must “break
down mixed questions of law and fact, applying the
appropriate standard to each component.” Meridian
Bank v. Alten, 958 F.2d 1226, 1229 (3d Cir. 1992).
The parties agree that the Bankruptcy Court’s
July 17, 2018 Order reopening the Chapter 11 Cases
is subject to review for abuse of discretion. (D.I. 6 at 1,
9 (order to reopen closed bankruptcy case is reviewed
for abuse of discretion); D.I. 12 at 1-2). With respect
to the Enforcement Order, granting Lennar’s Enforcement Motion and denying CACC’s Abstention Motion

App.21a
as moot, CACC suggests that this Court should conduct
de novo review. (D.I. 6 at 1-2). The Court disagrees.
In granting Lennar’s Enforcement Motion, the
Bankruptcy Court interpreted its own prior Confirmation Order and thus its ruling is subject to an “abuse
of discretion” standard. See In re Shenango Grp. Inc.,
501 F.3d 338, 346 (3d Cir. 2007) (“We agree with the
majority view that a bankruptcy court’s interpretation
of its own order ought to be subject to review for an
abuse of discretion.”).3 The factual findings underlying
the Order were not contested by CACC and are not
the subject of its appeal. (D.I. 6 at 20-32 (challenging
only the Bankruptcy Court’s interpretation and enforcement of its Confirmation Order, not its factual findings).

3 In Shenango, creditors moved to reopen a bankruptcy case and
to compel the debtor to make payments purportedly due under
the confirmed Chapter 11 plan. 501 F.3d at 342. After reopening
the case, the bankruptcy court granted the creditors’ motion
and ordered the reorganized debtor to make payments based on
the court’s interpretation of the plan. Id. at 343. On appeal, the
Third Circuit noted that it had “yet to adopt a standard for
reviewing a bankruptcy court’s interpretation of its own order”
and, following other circuits, adopted an abuse of discretion
standard. Id. at 345. The Court explained that it would “defer to
the interpretation of the Bankruptcy Court, which was directly
involved in this lengthy and complex proceeding.” Id. at 348.
The Supreme Court cited Shenango approvingly in 2009 in the
Travelers case, when it too afforded “substantial deference to” a
bankruptcy court order enjoining dozens of lawsuits that violated
a third-party release and injunction contained in the bankruptcy
court’s prior confirmation order. See Travelers Indem. Co. v.
Bailey, 557 U.S. 137, 151 n.4 (2009) (holding that “[n]umerous
Courts of Appeals have held that a bankruptcy court’s interpretation of its own confirmation order is entitled to substantial
deference”).

App.22a
The Bankruptcy Court’s denial of CACC’s
Abstention Motion as moot is also reviewed under
the abuse of discretion standard. See, e.g., In re BWP
Gas, LLC, 354 B.R. 701, 705 (E.D. Pa. 2006); In re
Greene, 1999 WL 689711, at *3 (E.D. Pa. Sept. 7,
1999). As Lennar correctly points out, this deferential
standard of review is consistent with the plain language
of 28 U.S.C. § 1334(c)(1). In re Direct Response Media,
Inc., 466 B.R. 626, 658 (Bankr. D. Del. 2012) (“Permissive
abstention arises under 28 U.S.C. § 1334(c)(1) which
provides that ‘nothing in this section prevents a district
court in the interest of justice, or in the interest of
comity with state courts or respect for state law, from
abstaining from hearing a particular proceeding arising
under title 11 or arising in or related to a case under
title 11.’”). “The pertinent case law demonstrates
that bankruptcy courts have considerable discretion
to decide whether to abstain under section 1334(c)(1).”
Bricker v. Martin , 348 B.R. 28, 34 (W.D. Pa. 2006)
(citing cases), aff’d, 265 F. App’x 141 (3d Cir. 2008).4
4 CACC suggests that a recent District of Delaware opinion requires this Court to apply de novo review to the Bankruptcy
Court’s November 1, 2018 Order. (D.I. 6 at 1 (citing In re
Millennium Lab Holdings II, LLC, 591 B.R. 559, 570 (D. Del.
2018) for the general proposition that the district court “reviews
the Bankruptcy Court’s findings of fact for clear error and exercises plenary review over questions of law”). CACC is wrong for
the reasons described above, and the Millennium case is inapposite.
In that case, the district court was reviewing a confirmation
order on direct appeal. In this case, the Confirmation Order became
final in 2009 and never was appealed. Because the Bankruptcy
Court was merely interpreting and enforcing the final Confirmation Order, an abuse of discretion standard applies. Shenango,
501 F.3d at 346; see also Travelers, 557 U.S. at 152 (bankruptcy
court’s confirmation order could not be collaterally attacked
after becoming final).

App.23a
IV. Analysis
A. The Bankruptcy Court Did Not Abuse Its
Discretion in Reopening the Chapter 11 Cases
CACC concedes that a bankruptcy court has
“broad discretion” to reopen cases after an estate has
been administered. (See D.I. 6 at 9). CACC argues,
however, that the Reopen Order entered in this case
should be vacated because the facts of this case do
not satisfy the six factor-test set forth in In re Holley
Performance Prods., 2015 WL 4638024 (Bankr. D.
Del. July 31, 2015). (See id at 10-14). CACC further
argues that Lennar’s Motion to Reopen constituted
an improper “removal” of the California Action to the
Bankruptcy Court and that the Bankruptcy Court
lacked jurisdiction to reopen the Chapter 11 cases.
(See id. at 18-19). Finally, CACC argues that the
“overarching policy” that bankruptcy courts should
limit post-confirmation jurisdiction warrants vacating
the Reopen Order. (See id. at 11-12, 19).
The Bankruptcy Court’s decision is entitled to
deference, and the required showing for an abuse of
discretion is high. In re Lazy Days RV Ctr. Inc, 724
F.3d 418, 422-23 (3d Cir. 2013) (“We have interpreted
Section 350(b) to give bankruptcy courts broad discretion to reopen cases after an estate has been
administered.”). Courts in this district have held that
a bankruptcy court’s decision should not be overturned
based upon an abuse of discretion “unless there is a
definite and firm conviction that the court below
committed a clear error of judgment in the conclusion
it reached upon a weighing of the relevant facts.” In
re SemCrude, L.P., 428 B.R. 590, 593 (D. Del. 2010)
(citation omitted). Thus, “a decision should not be

App.24a
overturned under the abuse of discretion standard,
unless no reasonable person would adopt the lower
court’s view.” Id. (emphasis added).
The Bankruptcy Court concluded that “cause” to
reopen existed under section 350(b) of the Bankruptcy
Code given the nature of the parties’ dispute—the
application of the Injunction and Release to the
California Action filed by CACC. See 11 U.S.C. § 350(b)
(“A case may be reopened in the court in which such
case was closed to administer assets, to accord relief
to the debtor, or for other cause.”); In re Lazy Days’
RV Ctr. Inc., Case No. 09-13911-KG, D.I. 166 (Mem.
Order) at *4 (Bankr. D. Del. June 16, 2011) (“when
considering whether to reopen a bankruptcy case, a
court should consider “the nature of the dispute and
the Court’s broad discretion.”), aff’d, 724 F.3d 418,
422-23 (3d Cir. 2013).
The Bankruptcy Court’s decision to reopen the
Chapter 11 cases for the limited purpose of interpreting
and enforcing the Confirmation Order is well supported
by the relevant facts. As explained on the record at
the July 17, 2018 hearing, the Bankruptcy Court
granted Lennar’s Motion to Reopen for two reasons:
(1) CACC’s claims against Lennar fall squarely within
the scope of the Release and therefore, go “to the
heart of the plan that was confirmed,” and (2) “if in
fact the motivating party [Mr. Marsch] is someone
who could fairly be considered a serial harasser,” the
Bankruptcy Court is best equipped to resolve the
matter by interpreting and enforcing its Confirmation
Order. (B.D.I. 3582-2, Ex. 25 (07/17/18 Hr’g Tr.) at 33:714; APP 378).
As Lennar correctly points out, federal courts, including the Third Circuit, consistently affirm bankruptcy

App.25a
court orders to reopen bankruptcy cases to permit
bankruptcy courts to interpret and enforce their prior
orders. See, e.g., In re Zinchiak, 406 F.3d 214, 223
(3d Cir. 2005) (concluding that record contained “sufficient grounds to support the Bankruptcy Court’s
decision to reopen for cause” because post-bankruptcy
dispute “implicated issues regarding . . . an interpretation of [the bankruptcy] court’s orders”); Lazy Days,
724 F.3d at 422-23 (cause existed to reopen bankruptcy
case in order to interpret agreement incorporated into
confirmed Chapter 11 plan); see also In re Atari, Inc.,
2016 WL 1618346, at *14 (Bankr. S.D.N.Y. Apr. 20,
2016) (reopening chapter 11 cases for purpose of
adjudicating whether release provisions of plan bar
prosecution of claims against non-debtor in foreign
court); In re Texaco Inc., 182 B.R. 937, 943 (Bankr.
S.D.N.Y. 1995) (granting motion to reopen Chapter 11
case to enforce injunction provisions in confirmation
order against parties engaged in state court litigation).
The Court agrees that the Lazy Days case is
instructive here. In that case, after the bankruptcy
proceeding had closed, the reorganized debtors and
their landlord filed separate suits against one another
in Florida state court. Lazy Days, Case No. 0913911-KG (Bankr. D. Del.), D.I. 166 (Mem. Order) at
*3. Both suits related to “a dispute whose genesis is
the Confirmation Order.” Id. There—as here—the
confirmation order expressly retained the bankruptcy
court’s jurisdiction to hear disputes involving “interpretation, implementation, or enforcement of the Confirmation Order.” Id. at *4; see Plan at 69 (retaining
jurisdiction “[t]o resolve any disputes concerning any
release of a non-Debtor hereunder or the injunction
against acts, employment of process or actions against

App.26a
such non-Debtor arising hereunder”), SA1778. When
the reorganized debtors asked the bankruptcy court
to reopen their case to adjudicate the dispute, the
bankruptcy court agreed, noting that the landlord
“ha[d] attacked a central provision of the Confirmation
Order.” Lazy Days, Case No. 09-13911-KG (Bankr.
D. Del.), D.I. 166 (Mem. Order) at *4. On appeal, the
Third Circuit determined that no abuse of discretion
occurred because “the Bankruptcy Court was asked
to reopen proceedings to resolve a dispute regarding
the Settlement Agreement it had previously confirmed.”
Lazy Days, 724 F.3d at 423. It continued: “[B]ecause
the Bankruptcy Court here was well suited to provide
the best interpretation of its own order, it had jurisdiction to reopen.” Id. (internal citation omitted).
The same is true here. The Bankruptcy Court
reopened the case to resolve a dispute regarding the
Injunction and Release in its Confirmation Order,
which expressly bar all persons—including Marsch
and CACC—from asserting claims against Lennar
“relating to” the Chapter 11 cases or LandSource.
(Plan at 60, SA1769; Confirmation Order at 42-43,
SA1685-86). The Bankruptcy Court’s decision to reopen
is entitled to deference based on its familiarity with
the complex and lengthy negotiations that led to the
confirmed Plan, as well as the significance of the
Lennar Settlement to the Debtors’ successful reorganization. For these reasons, the Bankruptcy Court was
best suited to interpret its own order and properly
exercised its discretion to reopen the cases and adjudicate the Enforcement Motion. Travelers, 557 U.S.
at 151 (explaining that bankruptcy courts “plainly
ha[ve] jurisdiction to interpret and enforce [their]
own prior orders” and affirming bankruptcy court

App.27a
order enjoining multiple state law actions initiated
in violation of third-party release and injunction in
Chapter 11 plan and confirmation order); In re
Malmgren, 277 B.R. 755, 759 (Bankr. E.D. Wis.
2002) (“If an order is to have any true meaning, if a
party is to be able to place any justifiable reliance on
an order, if a court is to have any credibility and
command any respect, then it must enforce its own
orders.”) (emphasis in original).
CACC urges this court to review the Bankruptcy
Court’s decision de novo and employ a six-factor test
for reopening that has not been adopted by the Third
Circuit. (See D.I. 6 at 10 (reciting factors identified in
In re Holley Performance Prods., No. 09-1444, 2015
WL 4638024 (Bankr. D. Del. July 31, 2015)). However,
this is not the appropriate standard of review, and
Holley does not compel a finding that the Bankruptcy
Court abused its discretion. See id. at *1 (bankruptcy
court declined to reopen case where another court
already had adjudicated substantial dispute between
parties that was subject of motion to reopen). The
Bankruptcy Court discussed Holley with the parties
during the hearing on the Motion to Reopen. (See
APP346 (D.I. 3582-2, Ex. 25 (07/17/18 Hr’g Tr. at 6-10,
14, 16, 18, 23-26, 31). The Bankruptcy Court found
that case distinguishable and ruled that the six
factors discussed in Holley are not dispositive. The
Court agrees that “a case can be reopened for cause,
which gives the court wide discretion in determining
what factors it should consider.” (Id. at 27:2-6).
CACC’s assertion that Lennar’s Motion to Reopen
constituted an improper “removal” of the California

App.28a
Action must also be rejected.5 Lennar’s Motion to
Reopen is not a notice of removal, and neither party
asked the Bankruptcy Court to adjudicate the merits
of the California Action.
Finally, the Court rejects CACC’s argument that
the “overarching policy” that bankruptcy courts should
limit post-confirmation jurisdiction warrants vacating
the Bankruptcy Court’s Order here. (See D.I. 6 at 1112, 19). A bankruptcy court plainly has jurisdiction
to enforce its own injunction. As the Bankruptcy
Court explained at the July 2018 hearing, even
though “the Third Circuit says that post-confirmation
a bankruptcy court’s jurisdiction contracts, [it] agrees
with [Lennar] that what further action should be
taken by [CACC], by whomever its controlled, goes to
the heart of the plan that was confirmed here,” and
therefore the dispute falls within the Bankruptcy
Court’s core jurisdiction, which was expressly retained
in the confirmed Plan. (Reopen Order, APP343-44;
07/17/18 Hr’g Tr., APP 378).
B. The Bankruptcy Court Did Not Abuse Its
Discretion in Granting the Limited Relief
Sought by Lennar’s Enforcement Motion
As the Bankruptcy Court explained at the October
25, 2018 hearing, the “undisputed evidence” demonstrates
5 See D.I. 6 at 13 (collecting cases regarding narrowing of
bankruptcy court jurisdiction post-confirmation). CACC also
cites In re Fla. Precast Concrete, Inc., 139 B.R. 37, 38 (Bankr.
M.D. Fla. 1992) for the proposition that the California state court
was the “appropriate venue” to enforce this Court’s Confirmation
Order. (Id. at 13). But Florida Precast did not involve enforcement of a bankruptcy court order at all—it addressed jurisdiction over a breach of warranty action. 139 B.R. at 38.

App.29a
that “Mr. Marsch formed CACC as a way of trying to
get around and avoid the release and injunction
provision provided in the confirmed Chapter 11 plan of
LandSource which was not appealed and has long,
long since become final,” and “[t]here is no question
. . . that Mr. Marsch is in privity with CACC,
Briarwood and is bound by the injunction and release.”
(10/25/18 Hr’g Tr. at 37:2-10, 38:2-14; APP618-19).
CACC provides no basis to challenge Judge Carey’s
opinion as a “clear error in judgment.” SemCrude, 428
B.R. at 593.
1. The Enforcement Order Is Narrowly
Tailored
CACC claims that the Enforcement Order is an
“exceptional decision . . . to step into the middle of a
California scandal that must be adjudicated under
the substantive law of the state of California, that
concern mostly California witnesses and California
incidents, and that involves multiple non-parties.”
(D.I. 6 at 9). CACC further claims that “Lennar should
not be allowed to foreclose the people of California
from pursuing a claim.” (Id. at 32). However, the
Court finds no support for these characterizations.
Here, the Bankruptcy Court merely enforced its
existing injunction against specific violators: Marsch
and CACC.
CACC’s assertion that the Order enforcing the
Injunction and Release is “against CACC, but also
against the CAGO” is also incorrect. (See id. at 20).
As Lennar, the CAGO, and CACC informed the
Bankruptcy Court last fall—and as the Bankruptcy
Court stated on the record and in the Enforcement
Order—the Order does not bind the People of California.

App.30a
(10/25/18 Hr’g Tr. at 37:15-16, APP 618 (The Court:
“[T]he actual relief sought by Lennar is limited to
Mr. Marsch and CACC.”)); Enforcement Order, APP
660 (“[T]he People of the State of California do not
oppose the Motion because it does not impact the
California Attorney General’s rights under the
California False Claims Act.”)).
Contrary to CACC’s assertions the Enforcement
Order also does not implicate “California witnesses”
or “California incidents,” and does not involve “multiple
non-parties.” (See D.I. 6 at 9). Rather, the Enforcement
Order binds only CACC, Mr. Marsch, and their agents.
It holds that “Citizens Against Corporate Crime,
LLC and its sole member and officer, Nicolas Marsch
III, knowingly violated this Court’s Injunction and
the Release in the Confirmation Order and confirmed
Plan”; requires Mr. Marsch and CACC to “dismiss
with prejudice the litigation pending against Lennar
in the United States District Court for the Eastern
District of California”; and “enjoin[s] CACC, Mr.
Marsch, and their agents from pursuing enjoined and
released claims and causes of action against Lennar
in further violation of the Confirmation and Confirmed
Plan.” APP660 (D.I. 3613 (Enforcement Order)).
2. The California Action Is Barred by the
Injunction and Release
CACC argues that the Bankruptcy Court abused
its discretion in enforcing the Confirmation Order
because the California Action is not barred by the
Confirmation Order’s Injunction and Release. The
Court disagrees. As Lennar correctly points out, the
Bankruptcy Court’s decision cannot constitute an abuse
of discretion, as the Enforcement Order is based on

App.31a
three undisputed facts that are dispositive—none of
which CACC contests.
First, and as the Bankruptcy Court explained at
the October 25, 2018 hearing, the Confirmation Order
and confirmed Plan released and enjoined “any and
all Claims . . . Causes of Action or liabilities . . . held by
any Person . . . based in whole or in part upon any
act or omission, transaction, or other occurrence
taking place on or before the Effective Date in any
way relating to the Debtors, the Chapter 11 Cases, or
the Plan” and enjoining the prosecution of those
claims by “any Person, whether directly, derivatively
or otherwise.” 10/25/18 Hr’g Tr. at 35:17-36:21, APP61617; Confirmation Order at 42-43 SA1685-86 (emphasis
added); Plan at 18, SA1727 (defining “Person” to include
“any governmental unit or any political subdivision
thereof’).
Second, it is undisputed that the allegations in
the California Action “relate to” the LandSource bankruptcy and Plan. (See Complaint at ¶¶ 18-20, 31, 37,
APP104 (alleging that Lennar “fraudulently induced
CalPERS to enter into a Contribution and Formation
Agreement which required CalPERS to contribute
nearly a billion dollars in assets to LandSource,” then
“induced CalPERS to allow [it] to strip all of the cash
and loan proceeds from the LandSource balance sheet
in a ‘Special Distribution,’” which “placed LandSource
on an inevitable and foreseeable path to bankruptcy,”
and subsequently “filed, managed, and manipulated
the LandSource bankruptcy, causing a total loss to
CalPERS”)). As the Bankruptcy Court explained,
CACC’s claims “arise out of pre-bankruptcy conduct
and alleged fraud,” including a “scheme allegedly . . .

App.32a
hatched in 2007 which was pre-bankruptcy.” (10/25/18
Hr’g Tr. at 23:25-24:20, APP604-05).
Third, it is undisputed that Marsch and his
wholly-owned companies, Briarwood and CACC, are
bound by the Injunction. The Injunction binds all
persons, subject to the limits of due process, including
“the following who receive actual notice of it by
personal service or otherwise: (A) the parties; (B) the
parties’ officers, agents, servants, employees, and
attorneys; and (C) other persons who are in active
concert or participation with anyone described in [(A)
or (B)].” Fed. R. Civ. P. 65(d)(2).6 As the Bankruptcy
Court explained, “notice is not an issue” here, because
Marsch, “as a representative of his company, Briarwood,
sat on the Creditors Committee, was active and involved
in the Chapter 11 proceeding . . . [and] [t]here is no
question . . . based on the undisputed facts here, that
Mr. Marsch is in privity with CACC, Briarwood and
is bound by the injunction and release” of the Confirmation Order. (10/25/18 Hr’g Tr. at 38:2-7, APP619).
CACC does not dispute on appeal that Marsch is
bound by the Confirmation Order or that CACC is in
privity with Marsch. The Court agrees with Lennar
that these undisputed findings of fact and conclusions
of law are dispositive.

6 See also Golden State Bottling Co. v. NL.R.B., 414 U.S. 168,
179 (1973) (“[A] decree of injunction not only binds the parties
but also those identified with them in interest, in ‘privity’ with
them, represented by them or subject to their control.” (citations
omitted).

App.33a
3. The Bankruptcy Court Correctly Rejected
CACC’s Contention that the Release and
Injunction in the Confirmation Order
and Plan Are Unenforceable as to CACC
and Marsch as Qui Tam Relators
As CACC is bound by the Injunction and Release,
CACC argued below that the Injunction should be
read to exclude qui tam claims under the California
False Claims Act “[a]s a matter of policy.” (B.D.I. 3590
(Objection to Enforcement Motion, APP 492). CACC
asserts these same arguments on appeal. The Court
finds no abuse of the Bankruptcy Court’s discretion
in rejecting these arguments.
First, the Confirmation Order became final over
nine years ago and was never appealed by any
party—not Briarwood, Marsch, the State of California,
CalPERS, or the CAGO. The Court agrees that CACC’s
challenge to the enforceability of the injunction years
later is untimely and barred by principles of res judicata. The Court agrees with Lennar that the Travelers
case is illustrative. In Travelers, the bankruptcy court
approved a settlement that was the “cornerstone” of
the reorganization. Travelers, 557 U.S. at 141. Under
the settlement, Travelers paid $80 million to the
bankruptcy estate in exchange for a release and
injunction of “any and all claims, demands, allegations,
duties, liabilities and obligations (whether or not
presently known) which have been, or could have been,
or might be, asserted by any Person against” Travelers.
Id. at 142. More than a decade later, various plaintiffs
began filing actions against Travelers. Id. Travelers
went to the bankruptcy court and asked for an order
enforcing the release and injunction and requiring
dismissal of the state court actions. Following litiga-

App.34a
tion and appeals, the Supreme Court concluded that
“the terms of the injunction bar the actions” and that
“the finality of the Bankruptcy Court’s orders following
the conclusion of direct review generally” barred the
state court suits, which were essentially “challeng[ing]
the enforceability of the injunction.” Id. at 140. Because
the bankruptcy court’s “orders became final on direct
review over two decades ago,” the Court held that the
state court actions “constituted collateral attack[s] that
cannot be squared with res judicata and the practical
necessity served by that rule.” Id. at 154; see also In
re Bros. Materials Ltd., 580 B.R. 475, 480 (S.D. Tex.
2017) (holding that Travelers prohibits a party from
“attempting to bootstrap a jurisdictional challenge to
a confirmation order [by opposing] an enforcement
action.”); In re Arctic Glacier Int’l, Inc., 901 F.3d 162,
166 (3d Cir. 2018) (“When a bankruptcy court enters
a confirmation order, it renders a final judgment.
That judgment, like any other judgment, is res judicata.
It bars all challenges to the plan that could have
been raised.”).
Here, as in in Travelers, the California Action was
filed in violation of a final bankruptcy court order that
has been in place for several years. Despite notice
of the plan and its release provisions prior to the
confirmation hearing, neither Marsch, CalPERS, nor
any other purported victim of Lennar’s alleged fraud
challenged the Lennar Settlement by objecting to the
Plan, opting out of the Release, or appealing the
Confirmation Order. The Bankruptcy Court correctly
granted the Enforcement Motion consistent with principles of res judicata.
Second, separate and apart from the Injunction,
the Bankruptcy Court properly granted the Enforce-

App.35a
ment Motion because the Release is enforceable as to
CACC and Marsch. Contrary to CACC’s assertion,
there is no rule that pre-filing releases of qui tam
false claims act claims are unenforceable because they
“violate the public policy.” (D.I. 6 at 20). As Lennar
correctly argues, federal courts routinely enforce prefiling releases of qui tam false claims act claims
whether entered into by a relator alone, the purported
government victim alone, or both, particularly where
the parties plainly intended to release the false
claims act claims.7 The Gebert case is instructive. In
Gebert, as part of a litigation settlement agreement
that arose in a personal bankruptcy proceeding, the
Geberts agreed to release their former employer and
its principal from “any and all manner of action,
causes of action, claims, debts, demands, damages,
liabilities, controversies . . . suits, known or unknown.”
Gebert, 260 F.3d at 912. The settlement was approved
by a bankruptcy court, and the parties avoided litigation. Years later, the Geberts filed a qui tam law suit
7 See, e.g., US. ex rel. Gebert v. Transp. Admin. Servs., 260 F.3d
909, 917 (8th Cir. 2001) (enforcing prefiling release of claims
against relators where release was integrated into bankruptcy
settlement); US. ex rel. Hall v. Teledyne Wah Chang Albany, 104
F.3d 230, 234 (9th Cir. 1997) (enforcing prefiling release from
state court settlement against false claims act relator); US. v.
Purdue Pharma L.P., 600 F.3d 319, 333 (4th Cir. 2010)
(enforcing prefiling release against relator); US. ex rel. Ritchie
v. Lockheed Martin Corp., 558 F.3d 1161, 1171 (10th Cir. 2009)
(same); see also US. ex rel. Barajas v. Northrop Corp., 147 F.3d
905, 910 (9th Cir. 1998) (dismissing relator’s claim where government had settled false claims act suit); US. ex rel. Kelly v.
Boeing Co., 9 F.3d 743, 748 (9th Cir. 1993) (a qui tam relator’s
Article III standing is dependent upon government’s standing);
US. ex rel. Kreindler & Kreindler v. United Techs. Corp., 985
F.2d 1148, 1154 (2d Cir. 1993) (same).

App.36a
asserting federal false claims act claims against the
former employer and its principal. The defendants
sought dismissal and argued, inter alia , that the
Geberts could not proceed because the previous bankruptcy settlement and release barred the claims. The
district court granted summary judgment on multiple grounds, including release and res judicata. On
appeal, the Geberts argued—as CACC argues here—
that “enforcement of a pre-filing release of a qui tam
claim is against public policy because the release was
executed without the United States’ knowledge or
consent and because the Geberts are not the real party
in interest.” Id. at 915. The Eighth Circuit rejected
the Geberts’ argument, explaining that courts have
acknowledged a “threat that general pre-filing releases
pose to the viability of qui tam provisions,” but a “threat
to the public interest” was not implicated by the
Geberts’ court-ordered settlement agreement because
“the parties clearly agreed to prohibit all future
claims—qui tam claims included.” Id. at 916. It continued, “[t]he harm to the public interest is further
limited in that the settlement agreement and release
only runs to parties to the agreement, not to other
relators or to the government.” Id.
Like Gebert, the false claims act claims asserted
here by CACC were expressly considered and released
by the active participants in the Chapter 11 cases,
including Mr. Marsch and Briarwood. (Supplement
to Disclosure Statement, SA1283 (discussing facts
underlying California Action)). Additionally, the
Injunction in the Confirmation Order explicitly extends
to “derivative” claims—including qui tam actions on
behalf of the State of California, CalPERS, and/or
the CAGO. (Plan at 60, SA1769). Also, as in Gebert,

App.37a
the Enforcement Order was directed only to parties
to the LandSource bankruptcy case and their privies:
“CACC, Marsch, and their agents.” (Enforcement Order
at 3, APP 660).8 For these reasons, the Bankruptcy
Court correctly concluded that the Injunction and
Release are enforceable as to CACC and Marsch.
CACC’s final argument that Section 1141(d)(6)
of the Bankruptcy Code required the Bankruptcy
Court to deny the Enforcement Motion must also be
rejected. Section 1141(d)(6) governs the discharge of
a debtor’s debts. Under section 1141(d)(6), certain types
of fraud claims will not be extinguished by a discharge
of a debtor’s liabilities through confirmation of a plan
of reorganization. See 11 U.S.C. § 1141(d)(6)(A). Here,
the Bankruptcy Court properly concluded that Section
1141(d)(6) is inapplicable. Lennar was not a debtor
in these cases and is not claiming that liability was
extinguished based on discharge. Contrary to CACC’s
assertions, Section 1141(d)(6) places no limits on the
Bankruptcy Court’s authority to approve settlements
or to enter releases and injunctions with respect to
fraud claims held by government agencies—whether
for debtors or other interested parties as part of a
reorganization plan. See id. CACC cites no authority
which suggests that Section 1141(d)(6) provides a
basis for a district court to vacate a bankruptcy
court’s order interpreting its own injunction. Finally,
the discharge provisions of the confirmed Plan are—
8 Because of the limited scope of the Enforcement Order, CACC’s
arguments regarding whether the CAGO received notice of the
Injunction and Release and whether CAGO investigated CACC’s
purported claims against Lennar have no bearing on this Court’s
consideration of whether the Bankruptcy Court abused its discretion.

App.38a
like the Release and Injunction provisions—final judgments for purposes of res judicata. The Bankruptcy
Court was well within its discretion to grant the
Enforcement Motion.
C. The Bankruptcy Court Did Not Abuse Its
Discretion in Denying CACC’s Abstention
Motion as Moot
CACC’s challenge to the Bankruptcy Court’s
exercise of its discretion to deny the Abstention
Motion also fails. (D.I. 6 at 21-27; B.D.I. 3607 (CACC’s
Abstention Motion), APP567). The Bankruptcy Court’s
decision regarding whether or not to permissively
abstain is subject to substantial deference on review,
particularly because permissive abstention is a “narrow
exception to the duty of [the bankruptcy court] to
adjudicate a controversy properly before it” that
“rarely should be invoked.” Direct Response Media, 466
B.R. at 658.
Because of the extraordinary nature of the permissive abstention doctrine, it is not surprising that CACC
cites no case where a decision denying an abstention
motion was vacated on appeal as an abuse of discretion.
And with respect to the facts of this case, CACC has
made no showing that the Bankruptcy Court abused
its discretion by denying the Abstention Motion as
moot. As the Bankruptcy Court explained at the October 25, 2018 hearing, CACC’s Abstention Motion was
“moot as a result of the” Enforcement Order. CACC
does not challenge or address this conclusion. Rather,
CACC merely reargues the merits of its Abstention
Motion. CACC’s dissatisfaction with the Court’s decision
is not a demonstration of “clearly erroneous finding
of fact, legal conclusion or improper application of

App.39a
law to fact.” Infinity Invs. Ltd. v. Kingsborough, 316
B.R. 141, 144 (D. Del. 2004).
V.

Conclusion

The Court concludes that the Bankruptcy Court
properly ordered the reopening of the Chapter 11
cases and enforced the Injunction that lies at the
heart of its prior Confirmation Order. The Court will
therefore affirm the Bankruptcy Court’s July 17, 2018
order reopening the Chapter 11 cases, and its
November 1, 2018 Enforcement Order granting
Lennar’s Enforcement Motion and denying CACC’s
Abstention Motion. The Court will issue a separate
Order consistent with this Memorandum Opinion.
/s/ Colm F. Connolly
United States District Judge
January 3, 2020
Wilmington, Delaware

App.40a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF DELAWARE
(JANUARY 3, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
________________________
IN RE LANDSOURCE COMMUNITIES
DEVELOPMENT, LLC, ET AL.,

Debtors.
________________________
CITIZENS AGAINST CORPORATE CRIME, LLC,

Appellant,
v.
LENNAR CORPORATION,

Appellee.
________________________
Civ No. 18-1793-CFC
Chapter 11 Bankr. No. 08-11111-KJC
(Jointly Administered)
Before: Colm F. CONNOLLY,
United States District Judge.
For the reasons set forth in the accompanying
Memorandum Opinion, it is hereby ORDERED:

App.41a
1. The Order Granting Lennar Corporation’s
Motion to Reopen the Chapter 11 Bankruptcy Cases
(B.D.I. 3562), dated July 17, 2018, is AFFIRMED.
2. The Order Granting Lennar Corporation’s
Motion to Enforce the Injunction and Release in the
Debtors’ Joint Chapter 11 Plan and Confirmation Order
(B.D.I. 3613), dated November 1, 2018, is AFFIRMED.
3. The Clerk is directed to CLOSE Civ. No. 181793-CFC.
Entered this Third day of January 2020.
/s/ Colm F. Connolly
United States District Judge

App.42a
ORDER GRANTING LENNAR CORPORATION’S
MOTION TO ENFORCE THE INJUNCTION AND
RELEASE IN THE DEBTORS’ JOINT CHAPTER 11
PLAN AND CONFIRMATION ORDER
(NOVEMBER 1, 2018)
UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF DELAWARE
________________________
IN RE: LANDSOURCE COMMUNITIES
DEVELOPMENT, LLC, ET AL.,

Debtors.
________________________
Chapter 11
Case No. Bankr. No. 08-11111-KJC
Re: Docket Nos. 3581, 3590, 3593, 3595,3607
Before: Kevin J. CAREY,
United States Bankruptcy Judge.
Upon the motion (the “Motion”) of Lennar Corporation (“Lennar”), pursuant to sections 105, 350(b),
1129, 1141 and 1142 of title 11 of the United States
Code and Rule 9014 of the Federal Rules of Bankruptcy
Procedure, for entry of an order (i) declaring that
Citizens Against Corporate Crime, LLC (“CACC”) and
its sole member and officer, Nicolas Marsch III (“Mr.
Marsch”), knowingly violated this Court’s Injunction
and the Release in the Confirmation Order (Dkt.
2151) and confirmed Plan (Dkt. 2214-1); (ii) enforcing
the Injunction and Release in the Confirmation Order
and confirmed Plan and requiring CACC and Mr.

App.43a
Marsch to dismiss with prejudice the litigation pending
against Lennar in the United States District Court
for the Eastern District of California (the “California
Action”); and (iii) enjoining CACC, Mr. Marsch, and
their agents from pursuing enjoined and released
claims and causes of action against Lennar in further
violation of the Confirmation Order and confirmed
Plan;
And a hearing having been held on October 25,
2018 (the “Hearing”) to consider the Motion;
And, despite having adequate notice, Marsch
having failed to respond or appear individually, either
in person or through counsel, at the Hearing to oppose
the relief sought by Lennar;
And the Court having found that (i) the Court
has jurisdiction over this matter pursuant to 28
U.S.C. §§ 157 and 1334, (ii) venue is proper in this
district pursuant to 28 U.S.C. § 1409, and (iii) this is
a core proceeding pursuant to 28 U.S.C. § 157(b)(2)(A),
and adequate and sufficient notice of the Motion
having been given to all parties, entities, and individuals in interest in these cases, including the State
of California; and all such parties, entities, and individuals having been afforded due process and an
opportunity to be heard with respect to the Motion
and all relief requested therein;
And the Court having reviewed and considered:
(a) the Motion (D.I. 3581); (b) the objections to the
Motion (D.I. 3590); (c) the Statement of Non-Opposition
to the Motion filed by The People of the State of
California, by and through the California Attorney
General, indicating that the People of the State of
California do not oppose the Motion because it does

App.44a
not impact the California Attorney General’s rights
under the California False Claims Act (D.I. 3593); and
(d) the arguments of counsel made, and the evidence
proffered or adduced, at the Hearing;
And the Court finding, based on the evidence
proffered or adduced at the Hearing, that CACC and
Mr. Marsch filed the California Action in violation of
this Court’s Injunction and Release in the Confirmation
Order and confirmed Plan in this case;
And after due deliberation and sufficient cause
appearing, and for the reasons stated by the Court
on the record at the Hearing;
IT IS HEREBY ORDERED that:
1.

The Court’s findings of fact and conclusions
of law, as stated on the record at the Hearing,
are incorporated into this Order.

2.

CACC and Mr. Marsch filed the California
Action in violation of this Court’s Injunction
and Release in the Confirmation Order and
confirmed Plan in this case.

3.

CACC, Mr. Marsch, and their agents are
barred from prosecuting the California Action
by the Injunction and Release in the Confirmation Order and confirmed Plan.

4.

Within seven (7) business days of the entry
of this Order, CACC and Mr. Marsch shall
take all actions necessary to dismiss the
California Action.

5.

CACC, Mr. Marsch, and their agents are
enjoined from continuing to pursue released
and enjoined claims and causes of action

App.45a
against Lennar in further violation of the
confirmed Plan and Confirmation Order.
6.

CACC’s pending Motion for District of
Delaware to Abstain (D.I. 3607) is denied as
moot.

7.

This Court shall retain exclusive jurisdiction
to resolve any controversy or claim arising
out of or related to this Order.

8.

The Chapter 11 cases shall be closed fourteen
(14) calendar days after entry of this Order.
BY THE COURT:
/s/ Kevin J. Carey
United States Bankruptcy Judge

Dated: November 1, 2018
cc: David B. Stratton, Esquire1

1 Counsel is directed to serve a copy of this Order on all interested
parties and certify same to this Court.

App.46a
ORDER DENYING MOTION TO SHORTEN
NOTICE PERIOD WITH RESPECT TO MOTION
OF CITIZENS AGAINST CORPORATE CRIME,
LLC’S MOTION FOR ABSTENTION
(OCTOBER 23, 2018)
UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF DELAWARE
________________________
IN RE: LANDSOURCE COMMUNITIES
DEVELOPMENT, LLC, ET AL.,

Debtors.
________________________
Chapter 11
Case No. 08-11111-KJC
Ref. Docket Nos. 3589, 3594, 3596
Before: The Honorable Kevin J. CAREY,
United States Bankruptcy Judge.
Upon the Motion to Shorten of Citizens Against
Corporate Crime, LLC for entry of an order providing
that the applicable notice period for Citizens Against

Corporate Crime, LLC’s Motion for the District of
Delaware to Abstain be shortened pursuant to Rule
9006-1(e) of the Local Rules of the Bankruptcy Practice
and Procedure of the United States Bankruptcy Court
for the District of Delaware; and good and sufficient
cause appearing therefore, it is hereby:

App.47a
1.

ORDERED that the Motion to Shorten is
Denied for the reasons stated in Lennar
Corporation’s Objection (D.I. 3596).
/s/ Kevin J. Carey
United States Bankruptcy Judge

Dated: October 23, 2018

App.48a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT DENYING
SUR PETITION FOR REHEARING EN BANC
(JANUARY 7, 2021)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
IN RE: LANDSOURCE COMMUNITIES
DEVELOPMENT LLC, A/K/A LENNAR/LNR
FUNDING, A/K/A LENR PROPERTIES LLC,
A/K/A NWHL INVESTMENT, LLC, ET AL.,

Debtors,
v.
CITIZENS AGAINST CORPORATE CRIME, LLC,

Appellant.
________________________
No. 20-1134
(District Court No.: 1:18-cv-01793)
Before: SMITH, Chief Judge, McKEE,
AMBRO, CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY,
PHIPPS, and RENDELL, Circuit Judges.

 The vote for Senior Judge Rendell is limited to panel rehearing
only.

App.49a
The Petition of Appellant Citizens Against Corporate Crime, LLC for Rehearing or Rehearing En Banc
in the above-entitled case having been submitted to
the judges who participated in the decision of this
Court and to all the other available circuit judges of
the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition
for rehearing by the panel and the Court en banc, is
denied.
BY THE COURT
/s/ Marjorie O. Rendell
Circuit Judge
Dated: January 7, 2021
JK/cc: All Counsel of Record

App.50a
RELEVANT STATUTORY PROVISIONS
11 U.S.C. § 1141(d)(6)(A)
(6) Notwithstanding paragraph (1), the confirmation
of a plan does not discharge a debtor that is a
corporation from any debt—
(A) of a kind specified in paragraph (2)(A) or
(2)(B) of section 523(a) that is owed to a
domestic governmental unit, or owed to a
person as the result of an action filed under
subchapter III of chapter 37 of title 31 or
any similar State statute.
28 U.S.C. § 1334
(a) Except as provided in subsection (b) of this section,
the district courts shall have original and exclusive
jurisdiction of all cases under title 11.
(b) Except as provided in subsection (e)(2), and notwithstanding any Act of Congress that confers
exclusive jurisdiction on a court or courts other
than the district courts, the district courts shall
have original but not exclusive jurisdiction of all
civil proceedings arising under title 11, or arising
in or related to cases under title 11.
(c)
(1) Except with respect to a case under chapter
15 of title 11, nothing in this section prevents
a district court in the interest of justice, or
in the interest of comity with State courts
or respect for State law, from abstaining
from hearing a particular proceeding arising

App.51a
under title 11 or arising in or related to a case
under title 11.
(2) Upon timely motion of a party in a proceeding
based upon a State law claim or State law
cause of action, related to a case under title
11 but not arising under title 11 or arising
in a case under title 11, with respect to which
an action could not have been commenced
in a court of the United States absent jurisdiction under this section, the district court
shall abstain from hearing such proceeding
if an action is commenced, and can be timely
adjudicated, in a State forum of appropriate
jurisdiction.
(d) Any decision to abstain or not to abstain made
under subsection (c) (other than a decision not to
abstain in a proceeding described in subsection
(c)(2)) is not reviewable by appeal or otherwise
by the court of appeals under section 158(d), 1291,
or 1292 of this title or by the Supreme Court of
the United States under section 1254 of this
title. Subsection (c) and this subsection shall not
be construed to limit the applicability of the stay
provided for by section 362 of title 11, United
States Code, as such section applies to an action
affecting the property of the estate in bankruptcy.
(e) The district court in which a case under title 11
is commenced or is pending shall have exclusive
jurisdiction—
(1) of all the property, wherever located, of the
debtor as of the commencement of such case,
and of property of the estate; and

App.52a
(2) over all claims or causes of action that involve
construction of section 327 of title 11, United
States Code, or rules relating to disclosure
requirements under section 327.
Cal. Gov. Code § 12651(a)
(a) Any person who commits any of the following
enumerated acts in this subdivision shall have
violated this article and shall be liable to the
state or to the political subdivision for three times
the amount of damages that the state or political
subdivision sustains because of the act of that
person. A person who commits any of the following
enumerated acts shall also be liable to the state
or to the political subdivision for the costs of a
civil action brought to recover any of those penalties or damages, and shall be liable to the state
or political subdivision for a civil penalty of not
less than five thousand five hundred dollars
($5,500) and not more than eleven thousand
dollars ($11,000) for each violation, as adjusted
by the Federal Civil Penalties Inflation Adjustment Act of 1990, Public Law 101-410 Section 5 ,
104 Stat. 891, note following 28 U.S.C. Section
2461 .
(1) Knowingly presents or causes to be presented
a false or fraudulent claim for payment or
approval.
(2) Knowingly makes, uses, or causes to be made
or used a false record or statement material
to a false or fraudulent claim.
(3) Conspires to commit a violation of this subdivision.

App.53a
(4) Has possession, custody, or control of public
property or money used or to be used by the
state or by any political subdivision and
knowingly delivers or causes to be delivered
less than all of that property.
(5) Is authorized to make or deliver a document
certifying receipt of property used or to be
used by the state or by any political subdivision and knowingly makes or delivers a
receipt that falsely represents the property
used or to be used.
(6) Knowingly buys, or receives as a pledge of
an obligation or debt, public property from
any person who lawfully may not sell or
pledge the property.
(7) Knowingly makes, uses, or causes to be made
or used a false record or statement material
to an obligation to pay or transmit money or
property to the state or to any political subdivision, or knowingly conceals or knowingly
and improperly avoids, or decreases an obligation to pay or transmit money or property
to the state or to any political subdivision.
(8) Is a beneficiary of an inadvertent submission
of a false claim, subsequently discovers the
falsity of the claim, and fails to disclose the
false claim to the state or the political subdivision within a reasonable time after discovery
of the false claim.

App.54a
Cal. Bus. & Prof. Code § 17200
As used in this chapter, unfair competition shall
mean and include any unlawful, unfair or fraudulent business act or practice and unfair,
deceptive, untrue or misleading advertising and
any act prohibited by Chapter 1 (commencing
with Section 17500) of Part 3 of Division 7 of the
Business and Professions Code.

App.55a
THE PEOPLE OF CALIFORNIA’S
STATEMENT OF NON-OPPOSITION TO
LENNAR CORPORATION’S MOTION TO
ENFORCE THE INJUNCTION AND RELEASE
IN DEBTOR’S JOINT CHAPTER 11 PLAN
AND CONFIRMATION ORDER
(OCTOBER 18, 2018)
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF DELAWARE
________________________
IN RE: LANDSOURCE COMMUNITIES
DEVELOPMENT, LLC, ET AL.,

Debtors.
________________________
Chapter 11
Case No. 08-11111-KJC
The People of the State of California (“People”), by
and through the California Attorney General, hereby
submit the following statement of non-opposition to
Lennar Corporation’s Motion to Enforce the Injunction
and Release in Debtor's Joint Chapter 11 Plan and
Confirmation Order (“Motion”) [Dkt. No. 3581].
In the Motion, Lennar seeks an order: (1) declaring
Citizens Against Corporate Crime LLC (“CACC”) and
its sole member and officer Nicolas Marsch violated
this Court’s Injunction and Release in the Confirmation
Order and Confirmed Plan (“Injunction and Release”);
(2) enforcing the Injunction and Release and requiring

App.56a
CACC and Mr. Marsch to dismiss with prejudice their
California False Claims Act (“CFCA”) claims asserted in
federal court; and (3) enjoining CACC and Mr. Marsch
and their agents from pursuing claims against Lennar
in violation of the Confirmation Order and confirmed
Plan. Although the California Attorney General disagrees with certain statements and arguments Lennar
makes in the Motion, the California Attorney General
does not oppose the specific relief sought. The Proposed
Order, if entered by this Court, would neither affect
nor impair the California Attorney General’s constitutional rights to prosecute CFCA claims.
I.

CFCA Claims Can Only Be Waived or Released
by the California Attorney General Acting on
Behalf of the People

While the Injunction and Release may bar CACC
and Mr. Marsch from bringing CFCA claims against
Lennar, they do not preclude the People of California
from doing so. (Cf. Motion at ¶ 73).
A. The People of the State of California Is the
Real Party in Interest in a CFCA Claim
A CFCA claim belongs to the People of the State
of California, and can only be waived or released by
the Attorney General. Cal. Govt. Code § 12652(c)(1)
(“[a] person may bring a civil action for a violation of
this article for the person and . . . the State of California
in the name of the state . . . . ”). The only government
entities with standing under the CFCA are the Attorney General (for CFCA violations involving state funds)
and local prosecuting authorities (for political subdivision funds). Cal. Govt. Code § 12652(a) through (c).
“Once filed, the action may be dismissed only with the

App.57a
written consent of the Court and the Attorney General
. . . No claim for any violation . . . may be waived or
released by any private person . . . ” Cal. Govt. Code
§ 12652(c)(1) (emphasis added). Here, the real party in
interest in any CFCA claim against Lennar is the
People of the State of California. Because the Attorney
General has neither waived nor released the People’s
CFCA claims. the People’s claims are not affected by
the Motion and relief sought therein.
The fact that the Attorney General appeared in
the Bankruptcy action as counsel for various California
environmental agencies and did not oppose either the
Injunction or Release is immaterial to the People’s
rights under CFCA. To hold otherwise would be to
suggest that a law firm’s representation of one party
bind all of the firm’s clients, or that a client is enjoined
every time his lawyer appears in an action on behalf of
another client.
B. The CFCA Claim Does Not Belong to CalPERS,
and CalPERS Is Not the People of the State
of California
Similarly, any suggestion that the Attorney
General is barred because the Injunction and Release
enjoins CalPERS is also incorrect. The Injunction
and Release’s effect on CalPERS (Motion at ¶ 17) is
immaterial to the California Attorney General’s rights
under the CFCA.
While CalPERS is the victim of the alleged fraud,
it does not have standing to bring, litigate, release or
settle a CFCA claim. Again, only the Attorney General
—not CalPERS can bring or release a CFCA claim
involving CalPERS funds. Thus, despite what Lennar

App.58a
states, the government has not released any CFCA
claims (cf. Motion at fn. 9)—even if Mr. Marsch has.
Accordingly, the outcome in US. ex rel Gebert v.
Transport Administrative Services, 260 F.3d 909 (8th
Cir. 2001), where an earlier injunction and release
barred the relator’s claims, but not the government’s,
is appropriate here.1 There, the Court enforced the
injunction against the relator, but specifically stated
that: “We wish to emphasize that nothing in this
opinion should be construed as barring other potential
relators or the United States from pursuing this
claim against TAS.” Id. at 919 (emphasis added).
II.

The California Attorney General’s Claims Are Not
Dischargeable

Separately, False Claims Act claims “are not dischargeable in bankruptcy.” U.S ex ref Ceas v. Chrysler
Group, LLC, 78 F. Supp. 3d 869, 877 (N.D. Ill. 2015).
Section 1141(d)(6)(A) of Title 11 of the United States
Code states that a corporate debtor is not entitled to
discharge of debts owed to a domestic governmental
unit under: (1) Section 523(a)(2)(A) of the Code, which
extends to claims for money obtained by “false pretenses, a false representation, or actual fraud, other
1 There, a couple named the Geberts filed bankruptcy and their
former employer filed a bankruptcy claim. The Geberts argued
that they were entitled to money from their former employer.
Rather than litigate, the employer, the Geberts and other creditors
entered into a settlement and release in which the Geberts
released all claims. The Geberts later filed suit, alleging the
employer violated the False Claims Act for conduct pre-dating
the bankruptcy filing and settlement. The Government declined
to intervene. The Court concluded that because the FCA claim
could have been filed before the settlement, they were released
and the suit was barred. Id. at 914-15, 919.

App.59a
than a statement respecting the debtor’s or an insider’s
financial condition”; or (2) Section 523(a)(2)(B) of the
Code which extends to fraud respecting the debtor’s
financial condition.2 Both types of debts plainly fall
within the CFCA.3 Cal. Govt. Code § 12651(a)(1)
(“Knowingly presents or causes to be presented a false
or fraudulent claim for payment or approval”), (2)
(“Knowingly makes, uses, or causes to be made or
used a false record or statement material to a false or
fraudulent claim”), (7) (“Knowingly makes, uses, or
causes to be made or used a false record or statement
material to an obligation to pay . . . ”).
Accordingly, any CFCA claims brought in the
name of the People were not discharged and survive
the Injunction and Release.
III. The People Do Not Oppose Lennar’s Motion
Notwithstanding some of the broader statements
in the Motion, the actual relief sought by Lennar is
limited to Mr. Marsch and CACC. Specifically, Lennar’s
Proposed Order would enforce the Injunction and
Release, require CACC and Mr. Marsch to dismiss with
prejudice their CFCA claims, and enjoin CACC and
Mr. Marsch and their agents from pursuing claims
2 Based on CACC’s allegations, both types of fraud appear to be
present here. CACC alleges: (1) that Lennar defrauded CalPERS
and that it induced CalPERS to invest money in a financial
transaction that it knew was fraudulent; and (2) that Lennar
knowingly submitted a false written statement to CalPERS
that was materially false respecting its financial condition. See
Marosso Decl. [Dkt No. 3582] at Ex. 2 ¶ 16-30, 51-73.
3 The CFCA is based on the federal False Claims Act and is
substantively identical to it in many respects. See city of Pomona
v. Superior Court, 89 Cal, App. 4th 793, 802 (2001).

App.60a
against Lennar in violation of the Confirmation Order
and confirmed Plan. As the real party in interest in
the California Action, the People would be impacted
by this relief. However, in light of: (a) the unusual
facts in this case; and (b) the fact that the Proposed
Order does not infringe the Attorney General’s rights,
the People do not oppose Lennar’s request.
IV. Conclusion
Based on the foregoing, and because the Motion
does not impact the California Attorney General’s
rights under the CFCA, the People of the State of
California do not oppose the Motion or entry of the
Proposed Order.
Dated: October 18, 2018
Xavier Becerra
Attorney General of California
/s/ Joanna Rosen Forster
Deputy Attorney General

Attorneys for the People of the
State of California

App.61a
STATE OF CALIFORNIA’S NOTICE OF
ELECTION OF DECLINE INTERVENTION
(JANUARY 19, 2018)
SUPERIOR COURT OF THE STATE OF
CALIFORNIA, COUNTY OF SACRAMENTO
________________________
CITIZENS AGAINST CORPORATE CRIME, LLC,
a Wyoming Limited Liability Company,

Plaintiff,
v.
LENNAR CORPORATION, a Florida Corporation,
and DOES 1 Through 100, Inclusive,

Defendant.
________________________
Case No. 34-2017-00208469
Dept.: 53
Trial Date: None Set
Action Filed: February 24, 2017
Before: Hon. David I. BROWN, Judge.
FILED UNDER SEAL
Pursuant to Government Code section 12652,
subdivisions (c)(2) and (c)(5) and California Rules of
Court, rule 2.571(a)

App.62a
Pursuant to the California False Claims Act
(“CFCA”), California Government Code section 12652,
subdivision (c)(6)(B), the California Attorney General’s
Office (“CAGO”) notifies the Court of its decision not
to intervene in the above-captioned action.
This CAGO’s decision to decline intervention is
without prejudice because it remains a real party in
interest in this action. The CAGO respectfully refers
the Court to California Government Code section
12652, subdivision (c)(l), which states that, once filed,
a false claims action:
. . . may be dismissed only with the written
consent of the Court and the Attorney
General or prosecutor authority of a political
subdivision, or both, as appropriate under the
allegations of the civil action, taking into
account the best interests of the parties
involved and the public purposes behind this
act.
Accordingly, the CAGO has the continuing authority
to file a motion seeking to intervene in the future, or
otherwise move to dismiss, or settle this action. (Gov.
Code section 12652, subdivisions (e)(2) (and (f)(2)(A)).
The CAGO requests that it receive notice of any proposed settlement or dismissal of this action by the
parties.
Under the CFCA, upon request from the state,
the CAGO shall be served with copies of all pleadings
filed in an action in which it declined to intervene,
and supplied with copies of all deposition transcripts.
(Gov. Code section 12652, subdivision (f)(1).) Accordingly, the CAGO hereby requests that all pleadings
filed in the above-captioned action, as well as copies

App.63a
of all deposition transcripts, be served on the CAGO,
and that orders issued by the Court be sent to the
CAGO. The CAGO further requests that it receives
any notice or petition initiating any appeal and each
paper and brief filed in the appeal. (Gov. Code section
12656).
Dated: January 19, 2018
Respectfully Submitted,
Xavier Becerra
Attorney General of California
/s/ Joanna Rosen Forster
Deputy Attorney General

Attorneys for the People of the
State of California

